HHS/OIG-Audit--"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross of Washington and Alaska, (A-07-97-01205)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross
of Washington and Alaska," (A-07-97-01205)
March 18, 1997
Complete Text of Report is available in PDF format
(733 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Pension Costs claimed
for Medicare Reimbursement by Blue Cross of Washington and Alaska (Washington/Alaska)
for Fiscal Years 1993 through 1995. During this period, the allowable Medicare
pension costs were $57,826. However, Washington/Alaska claimed pension costs
of $73,514 for Medicare reimbursement. As a result, Washington/Alaska claimed
$15,688 in pension costs that were not allowable. The over claim occurred primarily
because Washington/Alaska used an inappropriate cost when calculating pension
costs attributable to Medicare indirect operations. We recommended Washington/Alaska
revise its Final Administrative Cost Proposals to eliminate the unallowable
pension costs. We also recommended that Washington/Alaska base future claims
for pension costs on costs calculated in accordance with the Cost Accounting
Standards. Washington/Alaska agreed with our recommendations.